U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: De’Undre Rashad Robert Turner v. United States of America,
S.Ct. No. 21-5176
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 5, 2021,
and placed on the docket on July 22, 2021. The government’s response is due on August 23,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5176
TURNER, DE'UNDRE RASHAD ROBERT
USA

ANSHU SURESH BUDHRANI
OFFICE OF THE FEDERAL PUBLIC DEFENDER
150 WEST FLAGLER STREET
SUITE 1700
MIAMI, FL 33130
305-533-4184
ANSHU_BUDHRANI@FD.ORG

